                                                                             Report No. DODIG-2014-099



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              AUGUST 13, 2014




                     Solicitation, Award, and Management
                     of Two Washington Headquarters
                     Services Multiple-Award Contracts
                     and Task Orders




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Solicitation, Award, and Management of Two Washington
                                Headquarters Services Multiple-Award Contracts and
                                Task Orders


August 13, 2014                                   Finding (cont’d)

Objective                                         WHS AD contracting officials did not properly perform
                                                  contracting functions and document contracting decisions
Our objective was to determine whether            because WHS AD management did not have adequate quality
Washington Headquarters Services (WHS)            assurance procedures.
contracting officials complied with the
Federal      Acquisition  Regulation   (FAR)      For one task order, WHS AD contracting officials determined
and other rules and regulations for the           that the customer did not accurately define the user
solicitation, award, and management of two        environment. In addition, the customer did not understand
multiple-award contracts. We reviewed two         that, on an FFP-type task order, the contractor would be paid
WHS multiple-award contracts, each with           the same regardless of the number of contractor personnel
three contractors, and a total not-to-exceed      working on the task order.
value of $555 million, and 11 task orders,
valued at $164.8 million.                         As a result, on one task order, DoD potentially wasted $271,358
                                                  and spent $2.4 million more than expected.           In addition,

Finding                                           by not properly performing contracting functions and not
                                                  documenting contracting decisions, WHS AD contracting officials
WHS Acquisition Directorate (AD) contracting      put the Government at risk of making uninformed decisions
officials generally solicited, awarded, and       on future acquisitions.     WHS AD officials took numerous
managed two multiple-award contracts and          corrective actions during the audit, including providing training
two task orders in accordance with the FAR        and updating policies.
and other rules and regulations. However,
WHS AD contracting officials did not
properly solicit, award, or manage nine task      Recommendation
orders, valued at $155.1 million. Specifically,   We recommend that the Director, WHS AD, review contracting
WHS AD contracting officials did not properly     officers’ failure to properly perform their responsibilities
document and support the pricing calculation      and, as appropriate, hold personnel accountable. Also, the
for removing functional areas from the            Director, WHS AD, should verify that contracting officials obtain
scope of work for one task order; support         approval for using FFP LOE-type task orders and prepare
acquisition decisions for nine task orders;       performance reviews.
obtain approval for the use of firm-fixed-
price, level-of-effort (FFP LOE)-type contract
line items for five task orders; or prepare       Management Comments
performance reviews for three task orders.        We received comments from the Director, WHS AD, in response
                                                  to a draft of this report. The comments addressed all specifics of
                                                  the recommendations, and no further comments are required.


Visit us at www.dodig.mil


                                                                      DODIG-2014-099 (Project No. D2013-D000CF-0139.000) │ i
                   Recommendation Table
                                                                                           No Additional
                                                  Management                             Comments Required
                    Director, Washington Headquarters Services Acquisition Directorate   1, 2.a, 2.b, and 3




ii │ DODIG-2014-099 (Project No. D2013-D000CF-0139.000)
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                August 13, 2014

MEMORANDUM FOR DIRECTOR, WASHINGTON HEADQUARTERS SERVICES

SUBJECT: Solicitation, Award, and Management of Two Washington Headquarters Services 		
	        Multiple-Award Contracts and Task Orders (Report No. DODIG-2014-099)

We are providing this report for your information and use. Washington Headquarters Services
Acquisition Directorate contracting officials properly solicited, awarded, and managed two
multiple-award contracts and two task orders. However, Washington Headquarters Services
Acquisition Directorate contracting officials did not properly solicit, award, and manage
9 Net-Centric Integrated Enterprise Information Technology Solutions task orders, valued at
$155.1 million, of 10 Net-Centric Integrated Enterprise Information Technology Solutions task
orders, valued at $163.1 million. As a result, DoD spent $2.4 million more than expected and
potentially wasted $271,358 on one task order.

We considered management comments on a draft of this report when preparing the final
report. Comments from Washington Headquarters Services addressed all specifics of the
recommendations and conformed to the requirements of DoD Directive 7620.3; therefore, we
do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Deborah L. Culp
at (703) 604-9335 (DSN 664-9335).




	                                              Amy J. Frontz
	                                              Principal Assistant Inspector General
	                                                for Auditing




                                                                                         DODIG-2014-099 │ iii
Contents
Introduction
Objective__________________________________________________________________________________________1
Washington Headquarters Services____________________________________________________________1
NIEITS Multiple-Award Contract_ ______________________________________________________________2
Organizational and Management Planning Multiple-Award Contract_______________________5
Review of Internal Controls_____________________________________________________________________5

Finding. Inconsistent Compliance With Policies for
Solicitation, Award, and Management of Contracts
and Task Orders_______________________________________________________________________6
Multiple-Award Contracts and Two Task Orders Properly Solicited,
   Awarded, and Managed_____________________________________________________________________7
Nine NIEITS Task Orders Not Properly Solicited, Awarded, or Managed____________________9
Management Actions Taken___________________________________________________________________ 20
Conclusion______________________________________________________________________________________ 21
Management Comments on the Finding and Our Response________________________________ 22
Recommendation, Management Comments, and Our Response___________________________ 24

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 27
    Universe and Sample Information _______________________________________________________ 27
    Review of Documentation and Interviews_______________________________________________ 28
    Use of Computer-Processed Data _______________________________________________________ 32
Appendix B. Prior Coverage__________________________________________________________________ 33
Appendix C. Criteria___________________________________________________________________________ 35
Appendix D. Summary of NIEITS Task Order File Documentation________________________ 41

Management Comments
Washington Headquarters Services Acquisition Directorate_______________________________ 42

Acronyms and Abbreviations______________________________________________ 46



                                                                                                       DODIG-2014-099 │ v
                                                                                                                                        Introduction




Introduction
Objective
Our objective was to determine whether Washington Headquarters Services (WHS)
contracting officials complied with the Federal Acquisition Regulation (FAR) and
other rules and regulations for the solicitation, award, and management of:

              •	 HQ0034-11-D-0001, HQ0034-11-D-0002, and HQ0034-11-D-0003—a set of
                  multiple-award contracts1 for information technology (IT) solutions—and

              •	 HQ0034-12-D-0021,                  HQ0034-12-D-0022,                  and       HQ0034-12-D-0023—a
                  set of multiple-award contracts for program management, knowledge
                  management, administrative, and survey services.

After the start of the audit, we expanded the scope to include a review of the
solicitation, award, and management of task orders issued against the multiple-award
contracts (MACs) to determine whether WHS contracting officials complied with
the FAR and other rules and regulations. See Appendix A for a discussion of the
scope and methodology, Appendix B for prior coverage, and Appendix C for criteria
related to the objectives.


Washington Headquarters Services
WHS is a DoD field activity that operates and maintains the Pentagon Reservation
and designated facilities in the Washington, D.C., area.                                             According to DoD
Directive  5110.04, “Washington Headquarters Services (WHS),” March  27, 2013, the
WHS mission is to provide a broad range of administrative, management, and common
support services, including:

              •	 human resources and security clearances,

              •	 facilities and facility operations,

              •	 IT capabilities,

              •	 financial management,



	1	
      Defense Federal Acquisition Regulation Supplement 216.501-1, “Definitions,” states that a multiple award contract is a
      multiple award task order contract or any other indefinite-delivery, indefinite-quantity contract that an agency enters into
      with two or more contractors under the same solicitation. FAR subpart 16.5, “Indefinite-Delivery Contracts,” establishes a
      preference for making multiple awards of indefinite-quantity contracts.




                                                                                                                                     DODIG-2014-099 │ 1
Introduction



                         •	 acquisition and contracting, and

                         •	 secure communications.

                 WHS is composed of six directorates, including the Acquisition Directorate (AD) and
                 the Enterprise Information Technology Services Directorate (EITSD).


                 Acquisition Directorate
                 WHS  AD plans, coordinates, and manages the procurement programs essential to
                 the mission of WHS. The procurement programs include construction, professional,
                 and other services; commodities and supplies; major communication and IT
                 systems; and special programs, totaling more than $900  million each year. WHS  AD
                 contracting officials awarded two MACs, the Net-Centric Integrated Enterprise
                 Information Technology Solutions (NIEITS) MAC and the Organizational and
                 Management Planning (O&MP) MAC.


                 Enterprise Information Technology Systems Directorate
                 WHS EITSD provides a full range of IT equipment, services, solutions, and
                 customer support to the Office of the Secretary of Defense, the Office of the Director
                 of Administration and Management, and WHS to meet mission and business
                 requirements. As the requiring office and end-user, WHS EITSD provided IT support
                 to other users for the overall NIEITS MAC.


                 NIEITS Multiple-Award Contract
                 On April  6, 2011, WHS  AD contracting officials awarded the NIEITS MAC
                 to three contractors with a total not-to-exceed value of $495  million.         As of
                 October  22, 2013, WHS  AD contracting officials awarded 10  task orders, valued
                 at $163.1  million, against the NIEITS MAC.     We reviewed the solicitation, award,
                 and management for all 10  task orders. WHS  AD contracting officials maintained
                 electronic copies of the NIEITS MAC and task order files.


                 Acquisition History
                 WHS  AD contracting officials awarded the NIEITS MAC to obtain IT solutions
                 to support the Office of the Secretary of Defense, WHS, and the Pentagon Force
                 Protection Agency.    According to the August  2, 2010, statement of objectives
                 included in the solicitation, the overall objective was to combine existing legacy
                 support contracts to obtain a full range of integrated enterprise net-centric
                 IT supplies and services that provide all users with responsive and efficient



2 │ DODIG-2014-099
                                                                                     Introduction



access to common information and services on a daily basis.       The statement of
objectives identified the following main functional areas:

        •	 customer support;

        •	 systems operations, administration, and maintenance;

        •	 applications support:

                  {{   development,

                  {{   maintenance,

                  {{   e-business systems administration, and

                  {{   software system development engineering;

        •	 business continuity;

        •	 hardware and software acquisition;

        •	 enterprise architecture and engineering services;

        •	 performance management;

        •	 project management; and

        •	 IT training services.

The acquisition plan, dated June  2, 2010, states that the contract combined
13  existing IT contracts, awarded to 12 different contractors, into one contract.
The figure, derived from WHS  AD’s pre-proposal conference brief, illustrates how
WHS officials planned to combine the information technology functions of
13 independent networks into a single integrated enterprise network.




                                                                                 DODIG-2014-099 │ 3
Introduction



                 Figure. Independent Networks Combined Into an Integrated Enterprise Network

                                                                Independent Networks
                       1.   USD Acquisition, Technology, and Logistics                                8. ASD Networks & Information
                       2.   USD Intelligence                                                              Integration
                       3.   USD Policy                                                                9. ASD Intelligence Oversight
                       4.   USD Comptroller                                                           10. ASD Legislative Affairs
                       5.   USD Personnel and Readiness                                               11. ASD Public Affairs
                       6.   Cost Assessment and Program Evaluation                                    12. ASD Health Affairs
                       7.   Office of the Director, Operational                                       13. Office of the Director of Administration
                            Test and Evaluation                                                           and Management




                                                                Independent Functions

                                                       Governance         Enterprise Services       Architecture

                                                               Continuity of Operations            Fiscal

                                                                         Critical Infrastructure




                                                           Integrated Enterprise Network

                 Legend:
                 ASD	    Assistant Secretary of Defense
                 USD	    Under Secretary of Defense


                 Protests
                 Three contractors who bid on the NIEITS MAC protested the award.                                                     The three
                 contractors filed protests at the agency, Government Accountability Office,
                 U.S. Court of Federal Claims, and U.S. Court of Appeals for the Federal Circuit. The
                 protests were generally denied or dismissed.                                      Work began in May  2012, after
                 resolution of the U.S. Court of Federal Claims case.


                 Contracting Officers
                 Between April 2011 and May 2012, a WHS AD contracting officer awarded the
                 NIEITS MAC and four task orders.                              The contracting officer was then promoted
                 to division director.                 The incoming contracting officer awarded the remaining
                 six task orders between June 2012 and August 2013.                                          In the report we refer to
                 the division director as the former contracting officer and the incoming contracting
                 officer as the current contracting officer.                            The current NIEITS contracting officer
                 works for the former NIEITS contracting officer.2

                 	2	
                       In a May 1, 2014, meeting, the Director, WHS AD, stated that the current contracting officer no longer works at WHS.


4 │ DODIG-2014-099
                                                                                        Introduction



Organizational and Management Planning
Multiple-Award Contract
On September  29, 2012, WHS  AD contracting officials awarded the O&MP MAC
to three contractors with a total not-to-exceed value of $60  million.         As of
October  22, 2013, WHS  AD contracting officials awarded two task orders, valued
at $3  million, against the O&MP MAC.    We reviewed one of the two task orders,
valued at $1.7  million. WHS  AD contracting officials maintained printed copies of
the O&MP MAC and task orders files.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May  30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses at WHS. Specifically, WHS  AD officials did not have adequate
procedures in place to ensure that the NIEITS contracting officers properly
solicited, awarded, and managed nine NIEITS task orders. We will provide a copy
of the report to the senior official responsible for internal controls at WHS.




                                                                                    DODIG-2014-099 │ 5
Finding




                 Finding
                 Inconsistent Compliance With Policies for Solicitation,
                 Award, and Management of Contracts and Task Orders

                 WHS  AD contracting officials generally solicited, awarded, and managed the O&MP
                 and NIEITS MACs, an O&MP task order, and 1 of the 10  NIEITS task orders, in
                 accordance with the FAR and other rules and regulations. However, of 10 NIEITS
                 task orders, valued at $163.1 million,3 WHS AD contracting officials did not
                 properly solicit, award, or manage 9 of them, valued at $155.1  million, in
                 accordance with the FAR and other rules and regulations.                                       Specifically, WHS  AD
                 contracting officials did not:

                               •	 properly document and support the pricing calculation for removing
                                   functional areas from the scope of work for one task order and did
                                   not provide an explanation for the discrepancies in the calculations;

                               •	 support acquisition decisions for nine task orders because they did not
                                   believe they were required to prepare the documents or believed they
                                   prepared the documents but could not locate the missing documents;

                               •	 obtain approval for the use of firm-fixed-price, level-of-effort (FFP LOE)-
                                   type contract line items for five task orders because they mistakenly did
                                   not obtain the approval or because the current contracting officer did
                                   not agree with the task order type selected by the former contracting
                                   officer; or

                               •	 prepare performance reviews in the Contractor Performance Assessment
                                   Reporting System for three task orders.4

                 WHS  AD contracting officials did not properly perform contracting functions
                 and document contracting decisions because WHS AD management did not have
                 adequate quality assurance procedures in place.




                 	3	
                       This is the total contract value including all modifications as of October 22, 2013.
                 	4	
                       We reviewed 4 of the 10 NIEITS task orders for performance reviews and customer satisfaction.




6 │ DODIG-2014-099
                                                                                                                                          Finding



For one task order, WHS AD contracting officials determined that the customer
did not accurately define the user environment. In addition, the customer did not
understand that, on an FFP-type task order, the contractor would be paid the
same regardless of the number of contractor personnel working on the task order.

As a result, on one task order, DoD potentially wasted $271,358 and spent
$2.4  million more than expected.                              In addition, by not properly performing
contracting functions and not documenting contracting decisions for nine task
orders, WHS  AD contracting officers put future WHS  AD contracting officers at
risk of making uninformed decisions when modifying the already awarded task
orders because the files do not provide a complete task order history.                                                       Also,
Government contracting officers are at risk of making uninformed source
selection decisions on future awards because of the missing past performance
reviews for NIEITS MAC contractors.


Multiple-Award Contracts and Two Task Orders
Properly Solicited, Awarded, and Managed
WHS  AD contracting officials generally solicited, awarded, and managed the
O&MP and NIEITS MACs, an O&MP task order,5 and a NIEITS task order6 in
accordance with the FAR, Defense Federal Acquisition Regulation Supplement
(DFARS), WHS  AD policies, and acquisition fundamentals outlined in the Under
Secretary of Defense for Acquisition, Technology, and Logistics memorandum,
“Implementation Directive for Better Buying Power 2.0 – Achieving Greater
Efficiency and Productivity in Defense Spending,” (Better Buying Power 2.0),
April  24, 2013. Specifically, for the O&MP and NIEITS MACs, WHS  AD contracting
officials:

               •	 prepared acquisition plans that contained the content required by
                   FAR Subpart  7.1, “Acquisition Plans,” and DFARS  Subpart  207.1,
                   “Acquisition Plans,” including acquisition background, market research,
                   objectives, and a plan of action.

               •	 prepared, issued, and posted solicitations in accordance with the
                   uniform contract format, as required by FAR Subpart  15.2, “Solicitation
                   and Receipt of Proposals and Information.” In addition, the solicitations


	 5	
       We reviewed O&MP task order HQ0034-12-D-0023-0003, which was one of two O&MP task orders that WHS AD
       contracting officials awarded in June 2013.
	 6	
       NIEITS task order HQ0034-11-D-0003-0004 was the first NIEITS task order that the current NIEITS contracting officer
       awarded after we initiated our audit and is 1 of 10 NIEITS task orders.



                                                                                                                                 DODIG-2014-099 │ 7
Finding



                            identified the factors that WHS  AD contracting officials would use to
                            evaluate proposals.

                         •	 evaluated contractor proposals in accordance with the evaluation factors
                            in the solicitations and performed technical, price, and past performance
                            evaluations in accordance with FAR Subpart 15.1, “Source Selection Process
                            and Techniques;” FAR Subpart  15.3, “Source Selection;” FAR Subpart  15.4,
                            “Contract Pricing;” and FAR  9.104-1(c), which states that a prospective
                            contractor is determined to be responsible if they have a satisfactory
                            performance record.

                         •	 documented source selection decisions in accordance with FAR 15.308,
                            “Source Selection Decision.”

                         •	 notified successful and unsuccessful offerors and conducted preaward and
                            postaward debriefings in accordance with FAR Subpart  15.5, “Preaward,
                            Award, and Postaward Notifications, Protests, and Mistakes.”

                 In addition, WHS  AD contracting officials generally complied with WHS  AD
                 Office Operating Instruction 5000-03 (Change  2), “Legal Review,” March  28, 2011,
                 which states, “Contracting Officers shall obtain legal counsel as necessary to ensure
                 AD procurement activities are conducted in compliance with applicable statutes
                 and regulations.” Specifically, WHS AD contracting officials:

                         •	 obtained legal reviews and documented those reviews in the file for
                            the O&MP MAC, and

                         •	 had evidence of legal reviews for some decision documents for the
                            NIEITS MAC. However, the WHS general counsel assigned to the NIEITS
                            MAC stated that she reviewed all NIEITS MAC documents except the
                            original solicitation.    She reviewed the original solicitation after
                            WHS  AD contracting officials posted it and found issues, which prompted
                            the first amendment to the solicitation.

                 WHS AD contracting officials properly solicited, awarded, and managed one
                 O&MP task order and one NIEITS task order.            Specifically, the officials provided
                 all MAC contractors with a fair opportunity for consideration of task order award,
                 as required by FAR 16.505(b), “Orders Under Multiple-Award Contracts,” and
                 DFARS 216.505-70, “Orders Under Multiple Award Contracts,” when the task
                 order value exceeds $150,000.       WHS  AD contracting officials properly awarded
                 and managed the two task orders by:




8 │ DODIG-2014-099
                                                                                                                     Finding



          •	 evaluating the proposals in accordance with the evaluation factors in
             the request for proposal,

          •	 supporting acquisition decisions, and

          •	 maintaining task order files that represented a complete history of
             the transaction.

In addition, the WHS  AD contracting officials assigned to the O&MP and
NIEITS MACs and task orders met the Defense Acquisition Workforce Improvement
Act training requirements for their position.                Each had a warrant that met the
requirement levels of WHS  AD Office Operating Instruction 5000-02 (Change  3),
“Contracting and Grant Officer Warrant Program,” August 15, 2012.

WHS  AD contracting officials properly maintained the MAC contracts and
two task order files and ensured that the documentation constituted a complete
history of the transaction, including the rationale for key decisions made during
the award process.


Nine NIEITS Task Orders Not Properly Solicited,
Awarded, or Managed
Of 10 NIEITS task orders, valued at $163.1 million, WHS  AD contracting officials
did not solicit, award, or manage 9  of them, valued at $155.1  million, in accordance
with the FAR, DFARS, and WHS  AD policies. See Table  1 for a list of the nine NIEITS
task orders and their values.

Table 1. Task Orders Not Properly Solicited, Awarded, or Managed
                            Task Order                  Value as of October 22, 2013
                 HQ0034-11-D-0001-0001 (C)                      $19,370,596.24
                 HQ0034-11-D-0001-0002 (K)                           665,361.60
                 HQ0034-11-D-0002-0001 (B)                       21,941,357.65
                 HQ0034-11-D-0002-0002 (D)                       40,137,655.02
                 HQ0034-11-D-0002-0003 (E)                         5,744,508.91
                 HQ0034-11-D-0002-0004 (L)                       45,394,367.14
                 HQ0034-11-D-0003-0001 (A)                         3,339,691.28
                 HQ0034-11-D-0003-0002 (F)                       12,040,896.99
                 HQ0034-11-D-0003-0003 (G)                         6,513,743.68
                   Total                                       $155,148,178.51

Note: NIEITS contracting officers refer to the NIEITS task orders by letters. The letters are next to the
task number in parenthesis.

                                                                                                            DODIG-2014-099 │ 9
Finding



                 Pricing for Reduction in Scope of Work Not Properly Calculated
                 for Task Order C, Modification 6
                 The current NIEITS contracting officer did not properly document and support
                 the pricing calculation for removing functional areas and user groups from the
                 scope of work on Task Order C, potentially wasting
                 $271,358.          The current NIEITS contracting officer
                 issued Modification  6 to remove specific functional                      The current
                 areas and user groups from the scope of work.                         NIEITS contracting
                 However, the contractor’s price proposal from                       officer did not properly
                                                                                     document and support
                 the initial award, minus the removed functional
                                                                                   the pricing calculation for
                 areas and user groups, did not match the price                    removing functional areas
                 on Modification  6. In the request for proposal                   from the scope of work on
                 for Task Order  C, the former NIEITS contracting                   Task Order C, potentially
                                                                                        wasting $271,358.
                 officer included a user population list that
                 identified five user groups that would transition
                 onto the task order at different times during the base
                 period of performance.7                In the proposal for Task Order  C,
                 the contractor included a breakdown of the proposed price by functional area
                 and user group.             However, three of the five user groups never transitioned to
                 the task order.           In addition, the current NIEITS contracting officer reduced the
                 period of performance from 11 months to 6 months for four functional areas.

                 To verify Modification  6 pricing, we used the contractor’s proposal, subtracted
                 the user groups that the contracting officer removed, and reduced the period
                 of performance by 5  months for four functional areas.                   Although the current
                 NIEITS contracting officer stated that he used that methodology to calculate the
                 pricing for Modification  6, we were unable to duplicate his results. By using the
                 contracting officer’s stated methodology, we determined that DoD should have paid
                 $10,590,490 for this FFP-type task order during the base period of performance.
                 However, the contractor invoiced, and DoD paid, $10,861,848.                 Despite additional
                 follow-up, the current NIEITS contracting officer did not provide an explanation
                 for the inconsistent pricing.                As a result, DoD potentially wasted $271,358 on
                 Task Order  C because the current NIEITS contracting officer did not properly
                 calculate the removal of functional areas and user groups from the scope of work.




                 	7	
                       An 11-month period from May 2012 through March 2013.




10 │ DODIG-2014-099
                                                                                                Finding



Contracting Officers Did Not Support Acquisition Decisions
NIEITS contracting officials did not support acquisition decisions for nine task
orders, valued at $155.1 million, as required by the FAR and other rules and
regulations. Specifically:

         •	 NIEITS contracting officers did not prepare source selection decisions
             for six task orders, valued at $97  million, or document discussions with
             offerors for one task order, valued at $5.7  million, in the official task
             order files because they did not believe they were required to prepare
             the documents.

         •	 the current NIEITS contracting officer did not maintain a technical
             evaluation, price evaluation, or source selection decision for Task
             Order  K, valued at $665,362, or a source selection decision for
             Task Order  L, valued at $45.4  million.    He also did not prepare a
             written explanation for an exception to fair opportunity.    Although he
             stated that he prepared the documentation, he could not provide the
             missing documentation.

         •	 NIEITS contracting officers did not maintain signed versions of a
             technical evaluation for one task order, valued at $45.4  million, or
             price evaluations for four task orders, valued at $79.9  million. Although
             they believed that they signed the documents, they could not provide
             a copy of the signed version.

See Appendix  D for a complete list of the 10 NIEITS task orders and a summary
of the missing documentation.

Contracting officers should document their rationale for acquisition decisions
and maintain that documentation as required by FAR  4.801, “General,” which
requires the head of each office performing contracting to establish files containing
the record of all contractual actions and specifies, “The documentation in the
files . . . shall be sufficient to constitute a complete history of the transaction.”
WHS  AD Office Operating Instruction 5000-06, “Contract Files,” states that
WHS  AD personnel must establish and maintain contract and task order files
in accordance with FAR Subpart  4.8, “Government Contract Files,” and must
maintain electronic versions of the files in the same organizational manner as the
paper version.      The instruction also provides indexes for maintaining the files.
WHS AD contracting officials maintained the NIEITS contract and task order
files electronically.




                                                                                      DODIG-2014-099 │ 11
Finding



                 WHS  AD contracting officials did not properly perform contracting functions
                 and document contracting decisions because WHS AD management did not have
                 adequate quality assurance procedures in place.                In addition, supervisors did not
                 verify that contracting officials prepared and included required documents in
                 the     contract     files   and   did   not   hold    contracting      officers     accountable    for
                 non-compliance.         The Director, WHS  AD, should review the contracting officers’
                 failure to properly perform contract responsibilities and, as appropriate, initiate
                 actions to hold personnel accountable.


                 Source Selection Decisions Not Prepared and Discussions or Correspondence
                 With Offerors Not Documented in Official Files
                 The NIEITS contracting officers did not prepare source selection decisions for
                 six task orders or document discussions or correspondence with offerors for
                 one task order as required by FAR Subpart  4.8; FAR 16.505(b)(5), “Decision
                 Documentation for Orders;” and WHS AD policy. See Table 2 for a summary.

                 Table 2. Summary of Documentation Not Prepared
                                                                     Discussions or                 Value as of
                      Task Order    Source Selection Decision       Correspondence               October 22, 2013
                                                                     with Offerors
                          C               Not Prepared                 Not in File*                 $19,370,596.24
                          B               Not Prepared               Not Applicable                  21,941,357.65
                          D               Not Prepared               Not Applicable                  40,137,655.02
                          E               Not Prepared              Not Documented                    5,744,508.91
                          A               Not Prepared                 Not in File*                   3,339,691.28
                          G               Not Prepared               Not Applicable                   6,513,743.68
                        Total                                                                       $97,047,552.78

                 * The contracting officer provided evidence of discussions and correspondence with the offerors that
                 he kept in his e-mail. However, he did not include that documentation in the official task order files.

                 For six task orders, valued at $97  million, the former NIEITS contracting officer
                 stated that he did not believe he was required to prepare a source selection decision
                 because he awarded the task orders on the basis of lowest price and technically
                 acceptable.       FAR Subpart  4.8 applies to all orders and requires that contracting
                 officials maintain documentation to ensure a complete history of the action.
                 FAR 16.505(b)(5) states, “The contracting officer shall document in the contract
                 file the rationale for placement and price of each order, including the basis for
                 award and the rationale  .  .  .  .” Source selection is a key decision that contracting
                 officers should thoroughly and clearly document.



12 │ DODIG-2014-099
                                                                                                                                         Finding



For one task order, valued at $5.7  million, the current NIEITS contracting officer
did not document in the official task order files discussions or correspondence
with contractors.               Documentation from the task order files showed that the
technical evaluation teams determined that all initial contractor proposals were
unacceptable.8            The task order files contained revised contractor proposals and
revised technical evaluations.                       Therefore, we concluded that the contracting
officer contacted the contractors to request revised proposals.                                            However, the
NIEITS contracting officers did not prepare source selection decisions or maintain
documentation in the official task order files describing the decision to request
revised contractor proposals or to hold discussions.


Acquisition Decisions for One Task Order and a Source Selection Decision for
Another Task Order Not Maintained
The current NIEITS contracting officer did not maintain a technical evaluation,
price evaluation, source selection decision, or written exception to fair opportunity
for Task Order  K, valued at $665,362, or a source selection decision for
Task Order  L, valued at $45.4  million, as required by FAR Subpart  4.8,
FAR        16.505(b),         and      WHS  AD            policy.          FAR  16.505(b),              “Orders        Under
Multiple-Award Contracts,” requires contracting officers to provide a fair opportunity
for consideration to all contractors within a MAC or to prepare a written
justification for an exception to fair opportunity. One of the exceptions to providing
fair opportunity is when the task order is a logical follow-on to another task
order.        For Task Order K, the current NIEITS contracting officer stated that he
used the logical follow-on exception to the fair opportunity process; however,
he did not prepare a written justification for that exception.                                         In addition, the
contracting officer did not maintain other documentation in the task order file
to support that Task Order K was a logical follow-on to the previous task order.
Although the current NIEITS contracting officer stated that he prepared the
proposal evaluation documents, he could not locate the documentation.


Final Versions of a Technical Evaluation for One Task Order and Price
Evaluations for Four Task Orders Not Maintained
NIEITS contracting officials did not maintain signed versions of a technical
evaluation for one task order, valued at $45.4  million, or price evaluations for
four task orders, valued at $79.9 million, as required by the FAR, DFARS, and


	8	
      The WHS General Counsel noted in an e-mail her concern that NIEITS contractors continually provided initial proposals that
      the technical evaluation teams determined to be unacceptable.




                                                                                                                               DODIG-2014-099 │ 13
Finding



                 WHS  AD policy.           FAR  4.801 and WHS  AD policy require contracting officials
                 to obtain approvals and maintain documentation for supporting acquisition
                 decisions.        DFARS 204.802, “Contract files,” states that official contract files must
                 consist of, “Signed or official record copies of correspondence, memoranda, and
                 other documents.”           Officials signed technical and price evaluations included in
                 other task order files; therefore, technical and price evaluations were meant to
                 be signed. Furthermore, if a document is unsigned, it is unclear whether it is the
                 final and official version. The task order files contained unsigned versions of the
                 technical evaluation and price evaluations that showed the NIEITS contracting
                 officers’ analysis.        The NIEITS contracting officials believed that they signed
                 versions of the documents, but could not locate them. See Table 3 for a summary
                 of documentation that the contracting officers stated that they signed but could
                 not locate.

                 Table 3. Summary of Prepared But Unsigned Documentation

                                                                                           Value as of
                      Task Order       Technical Evaluation      Price Evaluation       October 22, 2013
                          B                  Signed                 Unsigned              $21,941,357.65
                          D                  Signed                 Unsigned               40,137,655.02
                          E                  Signed                 Unsigned                5,744,508.91
                          L                 Unsigned                 Signed                45,394,367.14
                          F                  Signed                 Unsigned               12,040,896.99
                        Total                                                            $125,258,785.71


                 Corrective Actions Taken During the Audit
                 WHS  AD officials took corrective action by updating and revising policy to
                 establish the minimum requirements for maintaining both hardcopy and electronic
                 contract files. The Director, WHS  AD, also issued a policy requiring WHS  AD staff
                 to perform monthly internal quality assurance reviews that include an assessment
                 of overall file documentation.           Therefore, we are not making a recommendation
                 for the Director, WHS  AD, to verify the content of the task order files.          See the
                 Management Actions Taken section for a detailed discussion.


                 Approval Not Obtained for Five Task Orders with
                 Firm-Fixed-Price, Level-of-Effort-Type Contract Line Items
                 NIEITS contracting officers did not obtain approval from the chief of contracting
                 for five task orders with FFP LOE-type contract line items totaling $35.7  million,




14 │ DODIG-2014-099
                                                                                                      Finding



as required by the FAR.         FAR  1.602-1, “Authority,” states, “No contract shall be
entered into unless the contracting officer ensures that  .  .  .  approvals, have
been met.”         FAR 1.602-2, “Responsibilities,” states that contracting officers are
responsible for ensuring performance of all necessary actions for effective
contracting, and shall request and consider the advice of specialists in law and
other    fields,   as   appropriate.    In     addition,   FAR  16.207,    “Firm-Fixed-Price,
Level-of-Effort Term Contracts,” requires the contracting officer to obtain approval
from the chief of contracting for the use of FFP LOE-type contracts with a value
greater than $150,000. See Table 4 for a summary of the FFP LOE-type task orders
for which the contracting officer did not obtain approval.

Table 4. FFP LOE-Type Task Orders Without Approvals
   Task Order               FFP LOE Approval                 Value of FFP LOE Line Items
         C                    Not Obtained                            $186,759.35
         B                    Not Obtained                           2,154,354.98
         D                    Not Obtained                          17,195,377.90
         L                    Not Obtained                          13,353,961.56
         G                    Not Obtained                           2,785,607.04
        Total                                                      $35,676,060.83


The former NIEITS contracting officer did not obtain approval to use an
FFP LOE-type task order for two task orders with FFP LOE-type contract line
items totaling $2.3  million.     The former NIEITS contracting officer stated that it
was a mistake and that he should have obtained approval.

The current NIEITS contracting officer awarded three NIEITS task orders with
FFP LOE-type contract line items, valued at $33.3  million, even though he did not
agree with or obtain approval for the use of FFP LOE-type contract line items.
The current NIEITS contracting officer stated that he signed the task order awards
because he relied on the work done by his predecessor.                He did not document
his disagreement with the task order type. He also did not take action to resolve
his disagreement, including requesting the advice of legal counsel or discussing
the matter with his predecessor, who became his supervisor.                    Therefore, the
current NIEITS contracting officer did not properly perform his contracting
authority and responsibilities when he awarded the three NIEITS task orders
without approval.        The Director, WHS  AD, should establish quality assurance
procedures that verify contracting officers obtain approval from the chief of
contracting for using FFP LOE-type task orders with contract line items totaling




                                                                                            DODIG-2014-099 │ 15
Finding



                 more than $150,000.                     The Director, WHS  AD, should review with contracting
                 officers the basic authority and responsibilities of their position, emphasizing the
                 importance of verifying that applicable requirements have been met before awarding
                 contracts and reminding them to review their options if they disagree with or
                 have concerns about potential contract actions.


                 Reviews Not Prepared in the Contractor Performance
                 Assessment Reporting System for Three Task Orders
                 The NIEITS contracting officers did not prepare performance reviews in the
                 Contractor Performance Assessment Reporting System for three NIEITS task orders,
                 valued at $76.8  million, of four NIEITS task orders, valued at $116.9  million,9 as
                 required by the FAR and the NIEITS MAC. FAR Subpart 42.15, “Contractor Performance
                 Information,” provides the policies and procedures for recording and maintaining
                 contractor performance information.

                 The NIEITS MAC states:

                                    The Contracting Officer will evaluate contractor performance
                                    in accordance with the criteria under FAR Subpart 42.15. The
                                    evaluation will take into account all aspects of the contractor’s
                                    performance. Interim performance evaluations may be completed
                                    at any time the Contractor's performance is considered less than
                                    satisfactory. Contractors will be provided a copy of the performance
                                    evaluation and an opportunity to discuss the evaluation. The
                                    negative performance evaluations will have an impact on the
                                    award of future Task Orders.


                 The NIEITS MAC further states:

                                    Past performance evaluations pertaining to the Basic Contract and
                                    Orders under the Basic Contract will reside in the Past Performance
                                    Information Retrieval System.[10] The Past Performance Information
                                    Retrieval System functions as the central warehouse for performance
                                    assessment reports received from various Federal performance
                                    information collection systems. Contractors will be required to
                                    register in the appropriate past performance assessment systems
                                    to review and respond to their surveys as prescribed by the
                                    Contracting Officer.




                 	9	
                         We reviewed 4 of the 10 NIEITS task orders for performance reviews and customer satisfaction.
                 	 10	
                         The Contractor Performance Assessment Reporting System transmits reports to the Past Performance Information
                         Retrieval System.



16 │ DODIG-2014-099
                                                                                                  Finding



Although customers documented performance concerns for three of the four task
orders, the contracting officers prepared a performance review in the Contractor
Performance Assessment Reporting System for Task Order  C only.        The customer
for Task Order  D was satisfied with the contractor’s performance.      However, the
customers for Task Orders  C, L, and F documented performance problems and
notified the NIEITS contracting officers.   The customers reported that personnel
lacked the level of skill required by the task order.        The NIEITS contracting
officers sent letters describing the performance problems to the contractors for
Task Orders  C and L, but not for Task Order  F.    The customer for Task Order  F
sent e-mails to the former NIEITS contracting officer and to the contracting officer’s
representative citing workforce concerns, such as a contractor employee found
sleeping at his desk.     Table 5 summarizes the performance information for the
four task orders.

Table 5. Performance Information Summary
             Task Order                Performance Review      Performance Concerns
 HQ0034-11-D-0001-0001 (C)                    Yes                      Yes
 HQ0034-11-D-0002-0002 (D)                    No                        No
 HQ0034-11-D-0002-0004 (L)                    No                       Yes
 HQ0034-11-D-0003-0002 (F)                    No                       Yes


Past performance reviews in the Contractor Performance Assessment Reporting
System are important and required by regulation.        The FAR and the Office of
Management and Budget, Office of Federal Procurement Policy memorandum,
“Improving the Collection and Use of Information About Contractor Performance
and Integrity,” (OMB Memo) March  6, 2013, outline requirements for considering
past performance in awarding contracts.     FAR  9.104-3, “Application of Standards,”
and FAR  15.304, “Evaluation Factors and Significant Subfactors,” require contracting
officers to consider past performance in awarding contracts.                 Specifically,
FAR  9.104-3 states that “a prospective contractor that is or has recently been
seriously deficient shall be presumed to be non-responsible.”            In addition,
FAR  15.304, states that “the quality of the product or service shall be addressed
in every source selection through consideration of one or more non-cost
evaluation factors such as past performance, and past performance shall be
evaluated in all source selections for negotiated competitive acquisitions expected
to exceed the simplified acquisition threshold.” Furthermore, the OMB Memo states:




                                                                                        DODIG-2014-099 │ 17
Finding



                                   Improving the collection and use of information about contractor
                                   performance and integrity strengthens the government’s ability
                                   to efficiently purchase goods and services from private industry.
                                   Assessments of a contractor’s performance on a government contract
                                   and general information about their adherence to certain Federal
                                   rules and regulations are critical to informing source selection and
                                   award decisions and ensuring the government builds relationships
                                   with high-performing suppliers.

                                                                             * * *

                                   Agencies are required to report past performance information
                                   on awards (contracts and orders) above the simplified acquisition
                                   threshold . . . This required contract administration duty can
                                   significantly reduce the risk to the government on future awards, so
                                   agencies must take bold steps to ensure that all critical performance
                                   information is made available in the Past Performance Information
                                   Retrieval System in a timely manner . .   .   .

                 Because of the requirements of the NIEITS MAC and the importance of past
                 performance analysis in future acquisitions, the Director, WHS  AD, should establish
                 quality assurance procedures that verify NIEITS contracting officers prepare official
                 performance reviews of the NIEITS contractors based on input from the customer,
                 ensure the reviews are entered into the Contractor Performance Assessment
                 Reporting System, and emphasize the importance of past performance reviews in
                 the acquisition process.


                 Inaccurate Documentation in Request for Proposal Led to
                 Increased Costs for Task Order C
                 WHS AD contracting officials determined that the customer did not accurately
                 define the user environment11 for Task Order  C.                                 WHS AD contracting officials
                 included the user environment document in the request for proposal; therefore, the
                 contractor relied on the document to develop its proposal.                                       The customer was
                 dissatisfied with the contractor’s performance on Task Order  C and rated the
                 contractor poorly.              In the contractor’s response to the poor performance rating,
                 the contractor stated that the environment document was not accurate.

                 WHS AD contracting officials also determined that the independent Government
                 cost estimate (IGCE), prepared by the customer, was not adequate. The customer


                 	11	
                        The environment document describes in detail the history, design, and functionality of the technical environment (for
                        example, number of employees being supported, versions of software, number and types of networks, and model number
                        and quantity of hardware) at the customer site.




18 │ DODIG-2014-099
                                                                                                 Finding



did not understand how an FFP-type task order functioned and was concerned
that the contractor’s initial invoices were not based on the actual number of
personnel provided. However, after reviewing the task order with WHS  AD officials,
the officials told the customer that it was obligated to pay the agreed-upon price,
regardless of the number of personnel working on the task order during the
billing period.

As a result, DoD spent $2.4  million more than expected because the contracting
officer increased the number of contractors working on the task order.              The
customer requested modifications to the task order during the base period
of performance to increase the number of contractor personnel beginning in
June  2012 through September  2012.          This increased the task order value by
$2.4  million.       Although the contractor’s proposed full-time equivalents were
in-line with the customer-prepared IGCE, the customer determined that the
contractor needed to provide additional staff during the transition period—
May 2 through 31, 2012—to meet the terms of the task order.

Ultimately, the customer was concerned about the contractor’s performance and
requested that the current NIEITS contracting officer remove one of the user
groups scheduled to begin receiving services under Task Order  C.        The current
NIEITS contracting officer reduced the scope of work on Task Order C, which
decreased the task order value by $53.1  million, including options.            Table  6
identifies the modifications, effective date, and dollar amounts associated with
the reduced scope of work.

Table 6. Modifications to Reduce the Scope of Work
         Modification                Effective Date               Reduction
                 4                   August 31, 2012            $1,279,185.27
                 6                  October 31, 2012            40,521,222.06
              13                      July 30, 2013             11,337,789.68
             Total                                             $53,138,197.01




                                                                                       DODIG-2014-099 │ 19
Finding



                 The specific scope reductions were as follows:

                                •	 effective August  31, 2012, the current NIEITS contracting officer reduced
                                    the scope of work on the task order to remove a user group, reducing
                                    the task order value by $1.3 million.

                                •	 effective October  31, 2012, the current NIEITS contracting officer
                                    removed the remaining three user groups intended to receive services
                                    on Task Order  C and terminated for convenience12 four of the task order
                                    functional areas from the scope of work, reducing the task order value
                                    by $40.5 million, including options.

                                •	 effective July  30, 2013, the current NIEITS contracting officer removed
                                    another functional area from the scope of work, reducing the task order
                                    value by $11.3 million, including options.

                 The contracting officer re-competed the tasks that he removed from the scope of
                 work for Task Order C and awarded a new task order and another contract.

                 We are not making a recommendation because WHS AD officials took corrective action
                 by offering training courses to contracting officials and customers on topics including:

                                •	 contract requirements development,

                                •	 statement of work preparation,

                                •	 contracting officer’s representative lessons learned, and

                                •	 elements of an independent Government cost estimate.


                 Management Actions Taken
                 WHS  AD officials took proactive actions to address areas of concern identified
                 during the audit.                 WHS  AD officials issued and revised policies and offered a
                 variety of training opportunities.                       Through those actions WHS  AD officials intend
                 to place a renewed and refocused emphasis on policy, quality, and training initiatives.

                 From January through July  2013, WHS  AD officials offered a variety of training
                 courses on preparing and maintaining contract file documentation, developing
                 contract          requirements,            and      preparing         performance            work       statements.              In

                 	12	
                        FAR Subpart 2.1, “Definitions,” states, “ ‘Partial termination’ means the termination of a part, but not all of the work that
                        has not been completed and accepted under a contract.” It also states, “ ‘Termination for convenience’ means the exercise
                        of the Government’s right to completely or partially terminate performance of work under a contract when it is in the
                        Government’s best interest.”




20 │ DODIG-2014-099
                                                                                               Finding



October  2013, WHS AD contracted with a consulting group to review contract
files as part of a broader professional development training plan for WHS  AD staff
and WHS  AD’s requiring activities.   As a result of the consulting group’s review,
in January 2014 WHS  AD officials began offering tailored training courses related
to the contracting process.

The Director, WHS  AD, issued Office Operating Instruction  5000-13, “Contract
Quality Review Team,” on June 24, 2013.             This policy established WHS  AD’s
quality review program which enacted a system of monthly contract file reviews.
The review team presented its findings and recommendations to the responsible
contracting officer, policy officer, Deputy Director, and Director. WHS  AD personnel
performed quality reviews from July 2013 through March 2014.

On July  19, 2013, the WHS  AD policy officer clarified Office Operating
Instruction  5000-06, “Contract Files,” to define the minimum required content of
a contract file, whether paper or electronic, and to state that the file should be the
single official repository for all contract decisions and actions.

In November  2013, WHS  AD officials hosted WHS  AD’s second annual open house
with customer training on the acquisition process and timelines, source selection
and protest lessons learned, contracting officer’s representative lessons learned,
important elements of an independent Government cost estimate, and small business
considerations in acquisition planning.


Conclusion
WHS AD contracting officials put the Government at risk of making uninformed
decisions on future acquisitions by not properly performing contracting functions
and not documenting contracting decisions. Specifically, by not properly performing
contracting functions or documenting contracting decisions for nine task orders,
future WHS  AD contracting officers are at risk of making uninformed decisions
when modifying the task orders because the files do not provide a complete
history of previous task orders.      Also, other Government contracting officers are
at risk of making awards to contractors that may have performed unsatisfactorily
because WHS  AD contracting officers did not prepare reviews of contractor
performance in the Contractor Performance Assessment Reporting System.




                                                                                     DODIG-2014-099 │ 21
Finding



                 Management Comments on the Finding and
                 Our Response
                 Washington Headquarters Services Acquisition Directorate
                 Comments on the Finding
                 The Director, WHS AD, stated that the report statement indicating WHS AD did
                 not have adequate quality assurance procedures does not reflect the WHS AD
                 environment. The Director stated that focusing the report on the task orders for
                 one MAC does not reflect on thousands of task orders properly administered by
                 WHS AD contracting officers who follow rules and regulations.            The Director
                 further stated that the report’s focus on the NIEITS MAC without a similar focus
                 on the O&MP MAC offers a jaundiced view of WHS AD.

                 The Director, WHS AD, provided alternate language for the report statement
                 “ . . . DoD potentially wasted $271,358.”      The Director suggested replacing the
                 statement with “unsupported” or “due to lack of supporting documentation.” The
                 Director stated that WHS AD staff was not able to determine why there was a
                 $271,358 discrepancy because there was a lack of available documentation.
                 The Director stated that WHS AD staff engaged the contractor and the customer
                 to attempt to better understand the basis for this discrepancy and that they
                 may take corrective action.

                 The Director, WHS AD, provided a rationale for the report statement that
                 DoD spent $2.4 million more than expected.        The Director stated that spending
                 the $2.4 million was not expected or previously anticipated; however, the
                 contracting officer and customer determined the increase was necessary.            The
                 Director further stated that the rationale for the increase of $2.4 million were
                 because the customer (1) did not adequately identify its user environment;
                 (2) underestimated the level-of-effort and labor mix; (3) interfered with the
                 contractor’s hiring decision processes; and (4) inappropriately directed the contractor
                 to perform outside the scope of work.


                 Our Response
                 We disagree with the Director’s statement about the report focus.        The scope of
                 the audit was the NIEITS and O&MP MACs. The audit team did not review other
                 contracts or task orders the WHS AD contracting officers awarded.          The report
                 does not make any statements about the solicitation, award, or administration of
                 contracts or task orders other than the NIEITS and O&MP MACs. The report section,




22 │ DODIG-2014-099
                                                                                               Finding



“Multiple-Award Contracts and Two Task Orders Properly Solicited, Awarded,
and Managed,” provides an overview of WHS AD contracting officers’ compliance
with the FAR, DFARS, WHS AD policies, and the acquisition fundamentals outlined
in Better Buying Power 2.0.    The audit report focuses on the NIEITS task orders
because that is where the contracting officers did not comply with rules and
regulations.    Because of that non-compliance, the audit team identified the
causes, effects, and provided recommendations to prevent future occurrences
of non-compliance. Therefore, the audit team did not revise the report.

As the Director stated, there is a lack of supporting documentation for the $271,358.
In our finding, we state, “Specifically, WHS AD contracting officials did not properly
document and support the pricing calculation for removing functional areas from
the scope of work for one task order and did not provide an explanation for the
discrepancies in the calculations.”    The Director’s statement about the amount
being unsupported by documentation is consistent with our finding. The result of
the contracting officer not providing documentation to support the calculations is
that DoD potentially wasted $271,358. Therefore, we did not revise the report.

The Director agreed that the $2.4 million was not expected. In the report section,
“Inaccurate Documentation in Request for Proposal Led to Increased Costs for
Task Order C,” we state,

           WHS AD contracting officials determined that the customer did not
           accurately define the user environment for Task Order C.

                                        * * *

           WHS AD contracting officials also determined that the independent
           Government cost estimate (IGCE), prepared by the customer was
           not adequate.

Those two statements address the Director’s comments (1) and (2).          We did not
obtain sufficient evidence to support the statements that the customer interfered
with the contractor’s management of personnel (Director’s comment 3) or that
the customer inappropriately directed the contractor to perform outside the scope
of the performance work statement (Director’s comment 4). Because of the lack of
evidence, we did not include the statements in the report. Therefore, we did not
revise the report.




                                                                                     DODIG-2014-099 │ 23
Finding



                 Recommendation, Management Comments, and
                 Our Response
                 We recommend that the Director, Washington Headquarters Services Acquisition
                 Directorate:


                 Recommendation 1
                 Review    the   contracting   officers’   failure   to   properly   perform   contract
                 responsibilities and, as appropriate, initiate actions to hold personnel
                 accountable.


                 Washington Headquarters Services Acquisition Directorate Comments
                 The Director, WHS AD, agreed, stating she met with the former contracting officer
                 to reiterate her expectations and tasked him to brief the results of our draft
                 report to their entire staff so that they understand the importance of proper
                 file documentation. The estimated completion date is August 2014. The Director
                 noted that the current contracting officer left the organization, but was counseled
                 prior to his departure.


                 Recommendation 2
                 Establish quality assurance procedures that verify:

                          a.	 Contracting officers obtain approval from the chief of contracting
                            for using firm-fixed-price, level-of-effort-type task orders with
                            contract line items totaling more than $150,000.

                 Washington Headquarters Services Acquisition Directorate Comments
                 The Director, WHS AD, agreed, stating that personnel will review all current
                 FFP LOE-type contracts for evidence of the required approvals. The Director also
                 stated that the FFP LOE approval will be a regular recurring item for the monthly
                 contract quality reviews. She stated the WHS AD personnel will review all current
                 FFP LOE-type contracts prior to January 2015.

                          b.	 Net-Centric   Integrated      Enterprise      Information    Technology
                            Solutions contracting officers prepare official performance reviews
                            of contractors with input from the customers, ensure the reviews
                            are entered into the Contractor Performance Assessment Reporting
                            System, and emphasize the importance of past performance reviews
                            in the acquisition process.


24 │ DODIG-2014-099
                                                                                                  Finding



Washington Headquarters Services Acquisition Directorate Comments
The Director, WHS AD, agreed, stating that Contractor Performance Assessment
Reporting System compliance has been a focus since the second quarter of FY 2012.
The Director stated that WHS AD’s Contractor Performance Assessment Reporting
System compliance rates increased from about 5 percent to about 77 percent since
the second quarter of FY 2012. She also stated that WHS AD is on track to meet
the Director, Defense Procurement and Acquisition Policy, goal of 95 percent
compliance. She further stated that, as of July 24, 2014, the NIEITS contracting officers
completed 12 contractor performance assessment reports for 7 NIEITS task orders.


Recommendation 3
Review with contracting officers the basic authority and responsibilities of
their position, emphasizing the importance of verifying that applicable
requirements have been met before awarding contracts; and reminding them
to review their options if they disagree with or have concerns about potential
contract actions.


Washington Headquarters Services Acquisition Directorate Comments
The Director, WHS AD, agreed, stating that she met with all contracting officers on
July 23, 2014, to discuss the findings of our report.         She said she stressed the
importance that they understand their responsibilities to deliver and document
sound business solutions compliant with law and regulation, and to demonstrate
the highest professional and ethical standards while being a good steward of the
taxpayers’ money. The Director pointed out that their appointment as contracting
officers is a matter of public trust and that, as contracting professionals, they must
maintain the skills, integrity, and business acumen necessary to safeguard the interests
of the United States in its contractual relationships.      The Director stated that the
WHS AD personnel are implementing a contracting officer warranting program.
In March 2014, the Director initiated a new process in which she personally meets
with every new contracting officer that she appoints to emphasize her expectations
and to emphasize the following:

        •	 having integrity and ethics, upholding the public trust, and being
           accountable to the taxpayer;

        •	 preparing sufficient supporting documentation for acquisition decisions;
           and

        •	 describing    the   contracting   officer’s   authority,   independence,   and
           responsibilities.

                                                                                        DODIG-2014-099 │ 25
Finding



                 Our Response
                 Comments from the Director, WHS AD, addressed all specifics of the recommendation,
                 and no further comments are required.




26 │ DODIG-2014-099
                                                                                                                                 Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from April 2013 through June  2014 in
accordance with generally accepted government auditing standards.                                                  Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives.                    We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.


Universe and Sample Information
We queried the Federal Procurement Data System-Next Generation to identify
indefinite-delivery contracts that WHS contracting officials awarded in FY  2011,
FY  2012, and the first quarter of FY  2013.                           We compared the query results to
information from the Electronic Document Access system to determine whether
the contract was a multiple-award or single-award indefinite-delivery contract. We
identified two WHS  AD-awarded MACs, the O&MP and NIEITS MACs.                                              Each MAC
included three contracts. The six contracts had a combined not-to-exceed value of
$555  million. We reviewed 1 of the 2 O&MP task orders and all of the 10 NIEITS
task orders.13 Specifically, we reviewed:

              •	 O&MP MAC: HQ0034-12-D-0021, HQ0034-12-D-0022, and
                  HQ0034-12-D-0023;

              •	 NIEITS MAC: HQ0034-11-D-0001, HQ0034-11-D-0002, and
                  HQ0034-11-D-0003;

              •	 O&MP task order: HQ0034-12-D-0023-0003; and

              •	 NIEITS task orders: HQ0034-11-D-0001-0001, HQ0034-11-D-0001-0002,
                  HQ0034-11-D-0002-0001, HQ0034-11-D-0002-0002,
                  HQ0034-11-D-0002-0003, HQ0034-11-D-0002-0004,
                  HQ0034-11-D-0003-0001, HQ0034-11-D-0003-0002,
                  HQ0034-11-D-0003-0003, and HQ0034-11-D-0003-0004.




	13	
       We identified O&MP and NIEITS task orders loaded into the Electronic Document Access system before September 2013.




                                                                                                                            DODIG-2014-099 │ 27
Appendixes



                 Review of Documentation and Interviews
                 We reviewed the MAC documentation to determine whether WHS  AD contracting
                 officers solicited, awarded, and managed the MACs in accordance with the FAR
                 and other rules and regulations.       We reviewed the contract files to determine
                 whether the files represented a complete history of the transaction in accordance
                 with the FAR and WHS  AD policy. We also reviewed the files to determine whether
                 WHS AD contracting officers included final versions of required documentation.

                 For MAC solicitations we reviewed:

                         •	 market research for adequacy and compliance with the FAR and DFARS;

                         •	 acquisition plans for adequacy of the synopsis, statement of need,
                            acquisition considerations, market research, sources solicited, and
                            set-aside decisions in compliance with the FAR and DFARS;

                         •	 performance work statements to determine the purpose and scope of
                            the contract;

                         •	 solicitations for adequacy and format, amendments, evaluation factors,
                            and time frames in compliance with the FAR; and

                         •	 Defense Contract Audit Agency reports to determine whether the MAC
                            contractors had approved cost accounting systems in order to use cost
                            reimbursable type contracts.

                 For MAC awards, we reviewed:

                         •	 proposals to determine whether contractors properly submitted and
                            contracting officials properly handled the proposals in compliance with
                            the FAR;

                         •	 protests, claims, agency responses, GAO decisions, the U.S. Court of
                            Federal Claims decisions, and the U.S. Court of Appeals for the Federal
                            Circuit decisions;

                         •	 technical evaluations for adequacy, completeness, and compliance with
                            the evaluation factors identified in the solicitation and the FAR;

                         •	 price evaluations for adequacy and to determine whether contracting
                            officials established a fair and reasonable price in accordance with
                            the FAR;




28 │ DODIG-2014-099
                                                                                            Appendixes



        •	 past performance evaluations for adequacy and completeness in
           accordance with the FAR;

        •	 source selection decisions for adequacy and completeness; and

        •	 awards to determine the contractors, period of performance, values, type
           of orders permitted on the contract, and terms and conditions.

For MAC management, we reviewed:

        •	 modifications to determine purpose and cost, and

        •	 files to determine whether contracting officials designated contracting
           officer’s representatives on the overall base contract.

We reviewed task order documentation for 11  task orders awarded against the
MACs to determine whether WHS  AD contracting officers solicited, awarded,
and managed the task orders in accordance with the FAR and other rules and
regulations.   We reviewed the task order files to determine whether the files
represented a complete history of the transaction in accordance with the FAR
and WHS  AD policy.      We also reviewed the files to determine whether WHS  AD
contracting officers included final versions of required documentation.

For task order solicitation, we reviewed:

        •	 performance work statements to determine the purpose and scope of the
           task order,

        •	 requests for proposals to determine the evaluation factors for award, and

        •	 file documentation to determine whether the contracting officer provided
           all contractors with a fair opportunity to be considered for award in
           compliance with the FAR and DFARS.

For task order award, we reviewed:

        •	 proposals to determine whether contractors properly submitted, and
           contracting officials properly handled, the proposals in compliance with
           the FAR;

        •	 technical evaluations for adequacy, completeness, and compliance with the
           evaluation factors identified in the request for proposal and the FAR;




                                                                                       DODIG-2014-099 │ 29
Appendixes



                          •	 price evaluations for six task orders awarded using the lowest price,
                                technically acceptable method to determine whether the awardee had
                                the lowest price of the offers received;

                          •	 source selection decisions for adequacy and completeness; and

                          •	 awards to determine the contractors, period of performance, values, type
                                of task order, and terms and conditions.

                 For task order management, we reviewed modifications to determine purpose,
                 cost, and whether the changes were within the scope of the overall contract and
                 whether contracting officials adequately supported the modification.

                 We reviewed all task order modifications entered into the Electronic Document
                 Access system from the date of task order award through October 22, 2013.

                 We reviewed 4 of 11  task orders for contractor performance and customer
                 satisfaction      through    August     2013.       We    non-statistically   selected   the
                 four NIEITS task orders to ensure we reviewed task orders awarded to each of
                 the three NIEITS MAC contractors and to ensure that we reviewed task orders
                 with poor performance and good performance. Specifically, for the four task orders,
                 we reviewed contracting officers’ representative and task monitor documentation,
                 contractor progress reports, invoices, and performance reviews. We did not review
                 the O&MP task order for contractor performance and customer satisfaction because
                 the O&MP contracting officers did not award the task orders until June 2013.

                 We obtained the position descriptions, Defense Acquisition Workforce Improvement
                 Act training certificates, and warrants of WHS  AD contracting officials assigned to
                 the O&MP and NIEITS MACs and task orders to determine whether they held
                 the appropriate certification and warrant for their position description and in
                 accordance with WHS AD policy. 

                 We compared the documentation to the requirements identified in the FAR, DFARS,
                 and other policy. Specifically, we determined whether WHS  AD contracting officials
                 complied with:

                          •	 FAR Subpart 1.6, “Career Development, Contracting Authority,
                                and Responsibilities;”

                          •	 FAR Subpart 2.1, “Definitions;”

                          •	 FAR Subpart 4.8, “Government Contract Files;”



30 │ DODIG-2014-099
                                                                                        Appendixes



        •	 FAR Subpart 7.1, “Acquisition Plans;”

        •	 FAR Subpart 9.1, “Responsible Prospective Contractors,”

        •	 FAR Part 10, “Market Research;”

        •	 FAR Part 15, “Contracting by Negotiation;”

        •	 FAR Part 16, “Types of Contracts;”

        •	 FAR Subpart 42.15, “Contractor Performance Information;”

        •	 FAR 46.407, “Nonconforming Supplies or Services;”

        •	 DFARS 204.802, “Contract Files;”

        •	 DFARS Subpart 207.1, “Acquisition Plans;”

        •	 DFARS Part 210, “Market Research;”

        •	 DFARS 216.505-70, “Orders Under Multiple Award Contracts;”

        •	 Under Secretary of Defense for Acquisition, Technology, and Logistics
           memorandum, “Implementation Directive for Better Buying Power 2.0 –
           Achieving Greater Efficiency and Productivity in Defense Spending,”
           April 24, 2013;

        •	 Office of Management and Budget, Office of Federal Procurement Policy
           memorandum, “Improving the Collection and Use of Information About
           Contractor Performance and Integrity,” March 6, 2013;

        •	 WHS  AD Office Operating Instruction 5000-02 (Change  3), “Contracting
           and Grant Officer Warrant Program,” August 15, 2012;

        •	 WHS  AD Office Operating Instruction 5000-03 (Change  2), “Legal Review,”
           March 28, 2011; and

        •	 WHS  AD Office Operating Instruction 5000-06, “Contents of Contract
           Files,” July 11, 2007.

See Appendix C for a complete description of the criteria used.

We reviewed documentation dated from February 1994 through May 2014.




                                                                                   DODIG-2014-099 │ 31
Appendixes



                 The audit team conducted the following site visits in Arlington, Virginia:
                 WHS  AD, WHS EITSD, WHS Office of General Counsel; and the Office of Cost
                 Assessment and Program Evaluation. The team also visited the Defense Technical
                 Information Center at Fort Belvoir, Virginia.          We interviewed key personnel to
                 determine their roles and responsibilities related to the MACs and task orders,
                 customer satisfaction, and contractor performance.           Those interviewed included
                 contracting   officers,   contract   specialists,   contracting   officers’   representatives,
                 task monitors, associate general counsel, and an IGCE preparer.


                 Use of Computer-Processed Data
                 We relied on computer-processed data from the Federal Procurement Data
                 System-Next Generation and the Electronic Document Access system to identify
                 our audit universe. We used the Federal Procurement Data System-Next Generation
                 data solely to identify potential contracts, but did not rely on information related
                 to the contract actions.       We queried the unique contract numbers identified
                 from the Federal Procurement Data System-Next Generation and compared the
                 contracts to the information in the Electronic Document Access system.                    We
                 obtained contract and task order documentation from the Electronic Document
                 Access system.     To assess the accuracy of computer-processed data, we verified
                 the information by comparing the documentation obtained from the Electronic
                 Document Access system to WHS  AD contract and task order files.                   Based on
                 our comparison, the documentation in the Electronic Document Access system
                 matched the documentation in the WHS AD contract and task order files.

                 We    obtained    invoices   from    Wide     Area    Workflow     and    used    those    for
                 Task Order  C to calculate the amount that DoD potentially overpaid during the
                 base period of performance.      We performed a limited assessment of the accuracy
                 of the Wide Area Workflow invoices by comparing them to the contractor’s
                 attached vouchers. We did not identify any discrepancies.

                 We determined that data obtained through the Federal Procurement Data System-Next
                 Generation, the Electronic Document Access system, and Wide Area Workflow was
                 sufficiently reliable to accomplish our audit objectives.




32 │ DODIG-2014-099
                                                                                                Appendixes




Appendix B
Prior Coverage
During    the   last   5  years,   the    DoD     Inspector   General    (DoD  IG)       and
Air Force Audit Agency issued 10 reports discussing award and administration
of multiple-award contracts.       Unrestricted DoD  IG reports can be accessed
at    http://www.dodig.mil/pubs/index.cfm.              Air    Force      Audit    Agency
reports   can    be    accessed    from    .mil    domains    over      the   Internet    at
https://afkm.wpafb.af.mil/community/views/home.aspx?Filter=OO-AD-01-41 by those
with Common Access Cards.


DoD IG
DoD IG Report No. DODIG-2013-121, “Award and Administration of Multiple-Award
Contracts at Joint Base San Antonio-Lackland Need Improvement,” August  23, 2013

DoD IG Report No. DODIG-2013-007, “Award and Administration of Multiple
Award Contracts at Naval Facilities Engineering Command Specialty Centers Need
Improvement,” October 26, 2012

DoD IG Report No. DODIG-2012-033, “Award and Administration of Multiple Award
Contracts for Services at U.S. Army Medical Research Acquisition Activity Need
Improvement,” December 21, 2011

DoD IG Report No. DODIG-2012-031, “Acquisition Procedures for the Guam
Design-Build Multiple Award Construction Contract,” December 8, 2011

DoD IG Report No. D-2009-082, “SeaPort Enhanced Program,” May 6, 2009

DoD IG Report No. D-2009-036, “Acquisition of the Air Force Second Generation
Wireless Local Area Network,” January 16, 2009

DoD IG Report No. D-2008-007, “Task Orders on the Air Force Network-Centric
Solutions Contract,” October 25, 2007

DoD IG Report No. D-2007-115, “Army Information Technology Enterprise
Solutions-2 Services Contract,” August 9, 2007

DoD IG Report No. D-2007-106, “Air Force Network-Centric Solutions Contract,”
June 29, 2007



                                                                                           DODIG-2014-099 │ 33
Appendixes



                 Air Force Audit Agency
                 Air Force Audit Agency Report No. F2011-0008-FC1000, “Multiple-Award Indefinite
                 Delivery Indefinite Quantity Contracts at the Air Logistics Centers,” August 13, 2011




34 │ DODIG-2014-099
                                                                                                   Appendixes




Appendix C
Criteria
FAR 1.602-1, “Authority,” states, “No contract shall be entered into unless the
contracting officer ensures that all requirements of law, executive orders,
regulations, and all other applicable procedures, including clearances and approvals,
have been met.”

FAR 1.602-2, “Responsibilities,” states that contracting officers are responsible for
ensuring performance of all necessary actions for effective contracting, and shall
request and consider the advice of specialists in law and other fields, as appropriate.

FAR   2.101,   “Definitions,”   states   that    the   simplified    acquisition      threshold
means $150,000.

FAR 4.801, “General,” states:

           (a)	 The head of each office performing contracting, contract
           	    administration, or paying functions shall establish files
           	    containing the records of all contractual actions.

           (b)	 The documentation in the files (see 4.803) shall be sufficient
           	    to constitute a complete history of the transaction for
           	    the purpose of—

                   (1)	 Providing a complete background as a basis for
                   	    informed decisions at each step in the acquisition process;

                   (2)	 Supporting actions taken;

                   (3)	 Providing information for reviews and investigations; and

                   (4)	 Furnishing essential facts in the event of litigation or
                   	    congressional inquiries.


FAR 4.803, “Contents of Contract Files,” provides examples of records normally
contained in contract files, such as the list of sources solicited, solicitation,
proposals, source selection documentation, cost or price analysis, documents
supporting modifications, and, in general, “any additional documents on which action
was taken or that reflect actions by the contracting office pertinent to the contract.”




                                                                                              DODIG-2014-099 │ 35
Appendixes



                 FAR Subpart 7.1, “Acquisition Plans,” provides policies and procedures for developing
                 acquisition plans.      Specifically, FAR 7.102, “Policy,” states that Agencies must
                 perform acquisition planning and conduct market research for all acquisitions in
                 order to promote and provide for acquisition of commercial items, full and open
                 competition, and selection of appropriate contract type.

                 FAR  9.104-3, “Application of Standards,” states that “a prospective contractor that
                 is or has recently been seriously deficient shall be presumed to be nonresponsible.

                 FAR Part 10, “Market Research,” provides the policies and procedures for conducting
                 market research to arrive at the most suitable approach to acquiring supplies
                 and services.

                 FAR Subpart 15.1, “Source Selection Processes and Techniques,” provides the policies
                 and procedures for competitive and noncompetitive negotiated acquisitions.

                 FAR Subpart 15.2, “Solicitation and Receipt of Proposals and Information,” provides
                 policies and procedures for preparing and issuing requests for proposals and for
                 receiving proposals and requires the use of the uniform contract format.

                 FAR 15.304, “Evaluation Factors and Significant Subfactors,” states:

                              The award decision is based on evaluation factors and significant
                              subfactors that are tailored to the acquisition  .  .  .  the quality of
                              the product or service shall be addressed in every source selection
                              through consideration of one or more non-cost evaluation factors
                              such as past performance  .  .  .  and past performance shall be
                              evaluated in all source selections for negotiated competitive
                              acquisitions expected to exceed the simplified acquisition threshold.


                 FAR 15.305, “Proposal Evaluation,” states, “Proposal evaluation is an assessment of the
                 proposal and the offeror’s ability to perform the prospective contract successfully.” It
                 provides further guidance on evaluation cost or price, past performance, and technical
                 abilities.

                 FAR 15.308, “Source Selection Decision,” requires the rationale for the selection decision
                 to be documented.

                 FAR 15.402, “Pricing Policy,” states that contracting officers must purchase supplies and
                 services from responsible sources at fair and reasonable prices.




36 │ DODIG-2014-099
                                                                                             Appendixes



FAR 15.404-1(e), “Technical Analysis,” states:

            At a minimum, the technical analysis should examine the types and
            quantities of material proposed and the need for the types and
            quantities of labor hours and the labor mix. Any other data that may
            be pertinent to an assessment of the offeror’s ability to accomplish
            the technical requirements or to the cost or price analysis of the
            service or product being proposed should also be included in
            the analysis.


FAR Subpart 15.5, “Preaward, Award, and Postaward Notifications, Protests, and
Mistakes,” provides guidance for notifying unsuccessful offerors, awarding to
successful offerors, conducting pre- and postaward debriefings, and protests.

FAR 16.207-3, “Limitations,” states that an FFP LOE contract may only be used
when the contract price is $150,000 or less, unless approved by the chief of
the contracting office.

FAR 16.505(b), “Orders Under Multiple-Award Contracts” states that contracting
officers must provide each awardee a fair opportunity to be considered for each
order exceeding $3,000 issued under MACs. It also requires each order exceeding
the simplified acquisition threshold to be placed on a competitive basis unless
supported by a written determination that one of the exceptions to fair opportunity
applies.   It further identifies exceptions to the fair opportunity process, including
that “The order must be issued on a sole-source basis in the interest of economy
and efficiency because it is a logical follow-on to an order already issued under
the contract.” FAR 16.505(b)(5), “Decision Documentation for Orders,” states:

            The contracting officer shall document in the contract file the rationale
            for placement and price of each order, including the basis for award
            and the rationale for any tradeoffs among cost or price and non-cost
            considerations in making the award decision. This documentation
            need not quantify the tradeoffs that led to the decision.


FAR Subpart 42.15, “Contractor Performance Information,” provides the policies and
procedures for recording and maintaining contractor performance information.

FAR 46.407, “Nonconforming Supplies or Services,” states that the contracting officer
should reject supplies or services that do not conform to the contract requirements.




                                                                                        DODIG-2014-099 │ 37
Appendixes



                 DFARS 204.802, “Contract Files,” states:

                            Official contract files shall consist of—

                            	   (1) Only original, authenticated or conformed copies of
                            	       contractual instruments—

                            		           (i)   “Authenticated copies” means copies that          are
                            		                 shown to be genuine in one of two ways—

                            		                 (A) Certification as true copy by signature of an
                            			                    authorized person; or

                            		                 (B) Official seal.

                            		           (ii) “Conformed copies” means copies that are complete
                            		                 and accurate, including the date signed and the
                            		                 names and titles of the parties who signed them.

                            	   (2)   Signed or official record copies         of   correspondence,
                            	         memoranda, and other documents.

                 DFARS 207.103, “Agency-Head Responsibilities,” states that agencies must prepare
                 written acquisition plans for acquisitions for services when the total cost is estimated
                 at $50 million or more for all years or $25 million or more for any fiscal year.

                 DFARS 210.001, “Policy,” states:

                            Use the results of market research to determine whether the criteria
                            in FAR Part 19 are met for setting aside the acquisition for small
                            business or, for a task or delivery order, whether there are a sufficient
                            number of qualified small business concerns available to justify
                            limiting competition under the terms of the contract. If the contracting
                            officer cannot determine whether the criteria are met, the contracting
                            officer shall include a written explanation in the contract file as to
                            why such a determination could not be made.


                 DFARS 216.505-70, “Orders Under Multiple Award Contracts,” states that each order
                 exceeding $150,000 on a MAC must be placed on a competitive basis, unless this
                 requirement is waived on the basis of a justification that is prepared and approved. An
                 order is considered to be placed on a competitive basis only if the contracting officer
                 provides a fair notice of the intent to make the purchase, including a description of
                 the supplies to be delivered or the services to be performed and the basis upon which
                 the contracting officer will make the selection, to all contractors offering the required
                 supplies or services under the multiple award contract.              The contracting officer




38 │ DODIG-2014-099
                                                                                              Appendixes



should consider past performance on earlier orders under the contract, including
quality, timeliness, and cost control.

Under Secretary of Defense for Acquisition, Technology, and Logistics memorandum,
“Implementation Directive for Better Buying Power 2.0 – Achieving Greater Efficiency
and Productivity in Defense Spending,” April 24, 2013, states acquisition fundamentals
include: (1) effective incentives to industry, especially competitive pressures;
(2) thorough understanding and active management of technical risk; (3) insistence
on demonstrated progress before major commitments; (4) getting the big early
decisions, particularly requirements trade-offs, right; and (5) using the right
contract type for the job.

Office of Management and Budget, Office of Federal Procurement Policy memorandum,
“Improving the Collection and Use of Information About Contractor Performance
and Integrity,” March 6, 2013, outlines requirements for considering past
performance in awarding contracts.

WHS  AD Office Operating Instruction 5000-02 (Change 3), “Contracting and Grant
Officer Warrant Program,” August  15, 2012, establishes the Defense Acquisition
Workforce Improvement Act certification levels and contracting officer warrant
levels for WHS AD personnel, according to grade. See Table C.

Table C. WHS AD Warrant Levels
         Warrant Level               Warrant Threshold           DAWIA Certification
        Micro purchase                       $2,500             Purchase Card Training
            GS-12                        Administrative                Level II
            GS-13                        Up to $5 million              Level III
        GS-14 and GS-15                     Unlimited                  Level III

Legend:
DAWIA	 Defense Acquisition Workforce Improvement Act
GS	     General Schedule




                                                                                         DODIG-2014-099 │ 39
Appendixes



                 WHS  AD Office Operating Instruction 5000-03 (Change  2), “Legal Review;”
                 March 28, 2011, states:

                                 Contracting Officers shall obtain legal counsel as necessary to ensure
                                 AD procurement activities are conducted in compliance with applicable
                                 statutes and regulations  .  .  .  To the greatest extent practicable, all
                                 communications with [Office of General Counsel] and all opinions or
                                 interpretations by [Office of General Counsel] shall be maintained in a
                                 separately labeled section in the contract file.


                 WHS  AD Office Operating Instruction 5000-06, “Contract Files,” July  11, 2007,
                 states that WHS  AD personnel must establish and maintain contract files containing
                 records of all WHS  AD contractual actions sufficient to constitute a complete history
                 of the transaction.         Contract specialists and contracting officers are responsible
                 for establishing and maintaining complete records of contractual actions in
                 accordance with the operating instruction and division directors are responsible
                 for ensuring contract files are maintained in locations that provide ready
                 accessibility to the principal users and are secured in order to maintain the integrity
                 of the files.




40 │ DODIG-2014-099
                                                                                                                                                              Appendixes




Appendix D
Summary of NIEITS Task Order File Documentation

                                                                                                               Evidence
                                                                           Source         Discussions or
                                            Technical       Price                                               of Fair        FFP LOE               Value as of
              Task Order                                                  Selection      Correspondence
                                           Evaluation     Evaluation                                         Opportunity       Approval           October 22, 2013
                                                                          Decision        with Offerors      or Exception
 HQ0034-11-D-0001-0001 (C)                   Signed         Signed      Not Prepared        Not in File          Yes         Not Obtained          $19,370,596.24
 HQ0034-11-D-0001-0002 (K)                   Missing       Missing         Missing        Not Applicable          No        Not Applicable             665,361.60
 HQ0034-11-D-0002-0001 (B)                   Signed        Unsigned     Not Prepared      Not Applicable         Yes         Not Obtained           21,941,357.65
 HQ0034-11-D-0002-0002 (D)                   Signed        Unsigned     Not Prepared      Not Applicable         Yes         Not Obtained           40,137,655.02
 HQ0034-11-D-0002-0003 (E)                   Signed        Unsigned     Not Prepared     Not Documented          Yes        Not Applicable           5,744,508.91
 HQ0034-11-D-0002-0004 (L)                  Unsigned        Signed         Missing        Not Applicable         Yes         Not Obtained           45,394,367.14
 HQ0034-11-D-0003-0001 (A)                   Signed         Signed      Not Prepared        Not in File          Yes        Not Applicable           3,339,691.28
 HQ0034-11-D-0003-0002 (F)                   Signed        Unsigned         Signed        Not Applicable         Yes           Obtained             12,040,896.99
 HQ0034-11-D-0003-0003 (G)                   Signed         Signed      Not Prepared      Not Applicable         Yes         Not Obtained            6,513,743.68
 HQ0034-11-D-0003-0004 (Mark Center)         Signed         Signed          Signed        Not Applicable         Yes        Not Applicable           7,924,196.64
  Total                                                                                                                                           $163,072,375.15

Legend:
Missing		         Contracting officer stated that he prepared the document but could not locate the document.
Not Applicable	   Contracting officer was not required to prepare the document or obtain approval for the task order.
Not Documented	   Contracting officer did not maintain documentation in the task order file to show that he held discussions or corresponded
		                with the offerors, although offerors provided revised proposals.
Not in File	      Contracting officer had documentation in his e-mail, but did not maintain that documentation in the official task order file.
Not Obtained	     Contracting officer did not obtain the appropriate approval.
Not Prepared	     Contracting officer stated that he did not prepare the document.
Signed		          Contracting officer prepared the document and maintained a signed version in the task order file.
Unsigned	         Contracting officer maintained an unsigned version of the document in the task order file and stated that he signed a version
		                of the document but could not locate it.


                                                                                                                                                         DODIG-2014-099 │ 41
Management Comments




                  Management Comments
                  Washington Headquarters Services Acquisition
                  Directorate
                                                      DEPARTMENT OF DEFENSE
                                                 WASHINGTON HEADQUARTERS SERVICES
                                                            1155 DEFENSE PENTAGON
                                                           WASHINGTON, DC 20301-1155

                      ACQUISITION
                      DIRECTORATE                                                                                 24 July 2014


                           MEMORANDUM FOR PROGRAM DIRECTOR, INSPECTOR GENERAL

                           SUBJECT: Solicitation, Award, and Management of Two Washington Headquarters Services
                                    Multiple-Award Contracts and Task Orders (Project No. D2013-D000CF-0139.000)

                           This is in response to your letter dated June 24, requesting my comments on the findings and
                           recommendations in your draft report. As already noted in your report, I have taken several
                           specific, proactive actions to address the areas of concern to improve the quality of contract
                           actions, provide additional oversight, hold personnel accountable, and I have placed a renewed
                           and refocused emphasis on policy, quality, and training initiatives. The following is my response
                           to your recommendations:

                           1. IG recommendation 1: Review the contracting officers’ failure to properly perform contract
                              responsibilities and, as appropriate, initiate actions to hold personnel accountable.

                              AD Response: Concur. I met with the former Contracting Officer (CO) to reiterate my
                              expectations and tasked him to brief the results of your draft report to our entire staff in
                              August, so that they all understand the importance of proper file documentation. The
                              “current” Contracting Officer was counseled. Note: The “current” Contracting Officer
                              referred to in the draft report left our organization.

                           2. IG recommendation 2: Establish quality assurance procedures that verify:

                              a. Contracting Officers obtain approval from the chief of contracting for using firm-fixed-
                                 price, level-of-effort-type task orders with contract line items totaling more than
                                 $150,000.

                                    AD Response: Concur. AD will, prior to January 2015, review all current FFP-LOE
                                    contracts for evidence of the required approvals. FFP-LOE approval will now be a
                                    regular recurring item on our monthly contract quality reviews. FFP-LOE approval will
                                    be added as a standard Quality Review Team (QRT) checklist item.

                              b. Net-Centric Integrated Enterprise Information Technology Solutions (NIEITS)
                                 Contracting Officers prepare official performance reviews of contractors with input from
                                 the customers, ensure the reviews are entered into the Contractor Performance
                                 Assessment Reporting System (CPARS), and emphasize the importance of past
                                 performance reviews in the acquisition process.

                                    AD Response: Concur. CPARS compliance has been a significant focus item for AD
                                    since 2nd quarter FY12. Since that time AD CPARS compliance rates have increased
                                    from 5.17% to 77% and we are tracking to meet the Director, Defense Procurement and




42 │ DODIG-2014-099
                                                                                                     Management Comments



Washington Headquarters Services Acquisition
Directorate (cont’d)

         Acquisition Policy (DPAP) goal of 95%. As of this date, the NIEITS COs have
         completed 12 CPARS for seven (7) NIEITS task orders (based on the various periods of
         performance) as follows:

            CPARS completed in JUL 2013 for HQ0034-11-D-0001 0001 w/Powertek
             for the period ending in MAR 2013; and again in JUN 2014 for the period
             ending in MAR 2014
            CPARS completed in MAR 2013 for HQ0034-11-D-0002 0001 w/NetCentrics
             for the period ending in APR 2012; and again in APR 2013 for the period
             ending in MAR 2013; and again in MAR 2014 for the period ending in MAR
             2014
            CPARS completed in APR 2014 for HQ0034-11-D-0002 0003 w/NetCentrics
             for the period ending in MAY 2013
            CPARS completed in MAY 2014 for HQ0034-11-D-0002 0002
             w/NetCentrics for the period ending in APR 2014; and again in JUN 2014 for
             the period ending in APR 2013
            CPARS completed in MAR 2014 for HQ0034-11-D-0002 0004 w/NetCentrics
             for the period ending in SEP 2013
            CPARS completed in APR 2014 for HQ0034-11-D-0003 0002 w/DMI for the
             periods ending in SEP 2012 and SEP 2013
            CPARS completed in AUG 2013 for HQ0034-11-D-0003 0003 w/DMI for the
             period ending JUL 2013

  3. IG Recommendation 3: Review with Contracting Officers the basic authority and
     responsibilities of their position, emphasizing the importance of verifying that applicable
     requirements have been met before awarding contracts; and reminding them to review their
     options if they disagree with or have concerns about potential contract actions.

     AD Response: Concur. I personally met with all AD COs on 23 July 2014 to discuss the
     findings of this report and stressed the importance that they understand their responsibilities
     to deliver and document sound business solutions compliant with law and regulation, to
     demonstrate the highest professional and ethical standards while being a good steward of the
     taxpayer. I also emphasized that their appointment as COs is a matter of public trust, and
     that as contracting professionals, they must maintain the skills, integrity, and business
     acumen necessary to safeguard the interests of the United States in its contractual
     relationships. In March 2014, I initiated a new process in which I personally meet with every
     new contracting officer that I appoint to emphasize my expectations and to stress the
     following:

            procurement integrity is non-negotiable,
            ethical considerations,
            importance of upholding the public trust and being accountable to the taxpayer,
            documenting the deal, to ensure that the document speaks for itself to tell the whole
             story that supports all acquisition decisions,



                                                                                                     2




                                                                                                           DODIG-2014-099 │ 43
Management Comments



                 Washington Headquarters Services Acquisition
                 Directorate (cont’d)

                                independence as the CO's authority comes directly from the head of the contracting
                                 activity who gets it from the agency head; thus, it is not a delegation of authority from
                                 the branch chief or the division director,
                                I ask them how they will ensure they keep up-to-date on all requirements of law,
                                 executive orders, regulations, and all other applicable procedures for everything they
                                 sign in accordance with FAR 1.602-1(b),
                                responsibility of the CO to the organization and to others,
                                every CO by definition is a leader, mentor, and instructor in AD, even if they are not a
                                 supervisor, and
                                what defines the "Gold Standard in AD.”
                                A Contracting Officer Warranting Program following the model in the Acquisition,
                                 Technology and Logistic, Director, Defense Procurement and Acquisition Policy
                                 memo dated February 10, 2012 is in the process of being implemented.

                      The following is offered for consideration in revising language and/or adding context to
                      statements in your report:

                            “…DoD potentially wasted $271,358.” Recommend using the term “unsupported” or “due
                             to lack of supporting documentation” as opposed to “potentially wasted.” Rationale: I
                             tasked my staff to review your findings, and they too were unable to determine why there is
                             an apparent discrepancy of $271,358 due to the lack of available documentation. However,
                             we have engaged the contractor and the customer to at least attempt to better understand the
                             basis for this apparent discrepancy, which may result in corrective action. Please note that
                             the responsible CO for these actions has since left DoD.

                            “…and spent $2.4 million more than expected.” Rationale: While not expected (i.e. not previously
                             anticipated), this increase was deemed necessary by the customer (and CO) to meet the mission
                             primarily because the customer (1) did not adequately identify their existing, "as is," environment;
                             (2) severely underestimated the level-of-effort and labor mix required; (3) interfered with the
                             contractor’s management of personnel (hiring decision processes); and, (4) inappropriately directed
                             the contractor to perform outside the scope of the performance work statement. Note: This
                             information is documented in a Past Performance Information Retrieval System (PPIRS) report
                             finalized in JUL 2013.

                             “…did not have adequate quality assurance procedures” Rationale: Does not reflect the WHS/AD
                             environment, with over 3,200 transactions, and obligations over $1.2B. A focus on task orders
                             placed on one Multiple-Award contract improperly administered by the “current” Contracting
                             Officer, does not reflect on thousands of task orders properly administered by the exceptional
                             Contracting Officers in the AD who follow in-place policy, guidance and regulation. The almost
                             singular focus on the Enterprise Information Technology Systems Division and the NIEITS




                                                                                                                              3




44 │ DODIG-2014-099
                                                                                                 Management Comments



Washington Headquarters Services Acquisition
Directorate (cont’d)

     Multiple-Award Contract discussion, without a similar focus on the Enterprise Office of the
     Secretary of Defense Division and the Organizational and Management Planning (O&MP)
     Multiple-Award Contract (MAC), in my opinion, offers a jaundiced view of the AD. Contracting
     Officers administering the O&MP followed procedures, policy and regulation.

                                                             Digitally signed by

                                           ALLEN.LINDA.NEW   ALLEN.LINDA.NEWHART


                                           HART.
                                                             Date: 2014.07.24 13:41:32 -04'00'

                                               Linda N. Allen
                                               Director




                                                                                                 4




                                                                                                       DODIG-2014-099 │ 45
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                         AD Acquisition Directorate
                      DFARS Defense Federal Acquisition Regulation Supplement
                      EITSD Enterprise Information Technology Solutions Directorate
                        FAR Federal Acquisition Regulation
                        FFP Firm-Fixed-Price
                       IGCE Independent Government Cost Estimate
                          IT Information Technology
                        LOE Level-of-Effort
                       MAC Multiple-Award Contract
                      NIEITS Net-Centric Integrated Enterprise Information Technology Solutions
                      O&MP Organizational and Management Planning
                       WHS Washington Headquarters Services




46 │ DODIG-2014-099
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
